<html>
<title> - REPORT OF THE COMMISSION TO ASSESS UNITED STATES NATIONAL SECURITY SPACE MANAGEMENT AND ORGANIZATION</title>
<body><pre>[Senate Hearing 107-640]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-640
 
  REPORT OF THE COMMISSION TO ASSESS UNITED STATES NATIONAL SECURITY 
                   SPACE MANAGEMENT AND ORGANIZATION 

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON STRATEGIC

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-578 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  




























                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                 ______

                       Subcommittee on Strategic

                    WAYNE ALLARD, Colorado, Chairman

STROM THURMOND, South Carolina       JACK REED, Rhode Island
BOB SMITH, New Hampshire,            ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
                                     E. BENJAMIN NELSON, Nebraska

                                  (ii)

  


















                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

  Report of the Commission to Assess United States National Security 
                   Space Management and Organization

                             march 28, 2001

                                                                   Page

Fogleman, Gen. Robert R., USAF (Ret.), Commissioner; Accompanied 
  by Robert V. Davis, Hon. William R. Graham, Gen. Thomas S. 
  Moorman, Jr., USAF (Ret.), and Hon. Malcolm Wallop.............     3

                                 (iii)


  REPORT OF THE COMMISSION TO ASSESS UNITED STATES NATIONAL SECURITY 
                   SPACE MANAGEMENT AND ORGANIZATION

                              ----------                              


                       WEDNESDAY, MARCH 28, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard, Smith, Inhofe, 
Sessions, Reed, Akaka, and Bill Nelson.
    Professional staff members present: L. David Cherington, 
George W. Lauffer, and Eric H. Thoemmes.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel, and Creighton Greene, professional staff 
member.
    Staff assistants present: Beth Ann Barozie and Thomas C. 
Moore.
    Committee members' assistants present: Margaret Hemenway, 
assistant to Senator Smith; Douglas Flanders, assistant to 
Senator Allard; Arch Galloway II, assistant to Senator 
Sessions; Derek Maurer, assistant to Senator Bunning; Elizabeth 
King, assistant to Senator Reed; Davelyn Noelani Kalipi, 
assistant to Senator Akaka; Peter A. Contostavlos, assistant to 
Senator Bill Nelson; and Eric Pierce, assistant to Senator Ben 
Nelson.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I am going to go ahead and call the 
Strategic Subcommittee to order. I would like to welcome the 
panel we have before us. A minority member will be showing up 
here shortly, and I do like to keep a reputation of starting on 
time, in this case maybe even a couple of minutes early, and I 
think that everybody gets in the habit sometimes of showing up 
late, so at least when I am chairing things we are going to be 
going on time.
    I thought one of the first hearings we ought to have as we 
move forward into the new Congress is to hear from the Space 
Commission, and what all your folks have to report to us on 
national security space management and organization. I am 
looking forward to your testimony. Many things which you 
recommend can be done without legislation, but I could not 
think of a better time to begin to highlight many of these 
issues just at the time when we have a new administration and 
new appointees moving into their various positions in the 
Department of Defense.
    The Strategic Subcommittee meets today to receive testimony 
from the Commission to Assess United States National Security 
Space Management and Organization. The commission's report to 
Congress was submitted on January 11, 2001. We are pleased that 
a significant number of the commissioners are able to appear 
today, and we look forward to hearing your views.
    The Space Commission was established pursuant to the 
National Defense Authorization Act for Fiscal Year 2000 under 
the leadership of Senator Bob Smith. The Strategic Subcommittee 
played the leading role in formulating the legislation that 
established the commission. The subcommittee continues to be 
extremely interested in all facets of national security space 
and will work with the new administration in implementing the 
commission's recommendations.
    For a number of years, this committee has expressed 
concerns regarding the United States national security space 
management and the adequacy of investment in space programs and 
research and development. I believe that the commission has 
done an excellent job of describing why space is so important 
to the U.S. national security and how we can improve our 
ability to exploit space and enhance our security.
    Although Secretary Rumsfeld was not able to remain with the 
commission beyond the point when he was nominated to serve as 
Secretary of Defense, I want to acknowledge the excellent job 
he did as chairman of the commission for most of its duration. 
Fortunately, the remaining commissioners possess impressive 
professional depth and diversity which facilitated a successful 
conclusion to the commission's efforts. I hope that Secretary 
Rumsfeld in his position will continue to promote national 
security space issues to the same extent he did while serving 
on the commission.
    Let me welcome our witnesses today. We have with us Senator 
Malcolm Wallop, who is the Chairman of Frontiers of Freedom, 
and served as a U.S. Senator from my neighboring State of 
Wyoming from 1977 to 1995.
    Dr. William R. Graham is Chairman of the Board and 
President of National Security Research, Incorporated. Gen. 
Thomas S. Moorman, Jr., retired Air Force, is a partner in Booz 
Allen Hamilton. Robert V. Davis is President of R.V. Davis & 
Associates. Gen. Robert R. Fogleman, retired Air Force, is 
President and CEO of the B. Bar J Cattle & Consulting Company, 
Durango Aerospace, Incorporated, and a partner in Laird & 
Company, LLC.
    At the time of his retirement in 1997, General Fogleman was 
Chief of Staff of the Air Force. I now have the high honor of 
having the General as a constituent living in Durango, 
Colorado.
    I understand General Fogleman will lead off with some 
prepared remarks, and that the other commissioners will then 
make observations. We will then have an opportunity to open it 
up for questions and answers after recognizing General Fogleman 
for his opening statement.
    First, let me recognize Senator Inhofe, if he has an 
opening statement, and then Senator Reed, if he has a statement 
he would like to make, and then move forward with testimony 
from there.
    Senator Inhofe. Thank you, Mr. Chairman. I do not have an 
opening statement, but I am here because of the significance of 
what is going on today. I recognize that the future wars are 
going to be won or lost in space. I recognize that we probably 
have superiority at this time, but I am not sure, on the track 
we have been going the last few years, it is going to remain 
that way. I chair the Readiness and Management Support 
Subcommittee, and our readiness is in a crisis today, but I do 
like to look ahead.
    I can remember in the 1997 Defense Authorization Bill two 
of the elements that dealt with space, Clementine II and the 
Kinetic Energy Anti-Satellite program. Both of them were line 
item vetoed, which sent an erroneous message around the country 
that we do not recognize the significance of space today, but 
this one Senator does, and so I am here to lend support to see 
where we are going to go here.
    It is good to see our old colleague Malcolm Wallop, and my 
old friend General Fogleman, and by the way, one of the reasons 
I have to leave here is our own friends from ALTIS are here in 
town today, so we have to take care of that.
    Senator Allard. OK. Let us go ahead and proceed with the 
testimony. I would just warn the panel that we could have a 
vote coming up in about 10 minutes or so. We will just go as 
far as we can, and if we have to take a break to go vote, we 
will come back if we have to.
    Before we have the panel testify, and without objection, I 
will place in the record Senator Thurmond's statement.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Mr. Chairman, I want to join you in welcoming the distinguished 
members of the Space Commission. They are without doubt the most 
qualified group of individuals ever assembled to look into an issue 
that is critical to the security of this Nation and its future in 
space. I especially want to welcome my old friend and colleague, 
Senator Wallop, he has a long association with space and has been one 
of the strongest advocates for our Nation's role in space.
    In my judgment, the commission's report provides a blue print to 
the future use of space both for intelligence and non-intelligence 
functions. The timing of the report is fortuitous in that Secretary of 
Defense Rumsfeld is conducting a strategic review of Department of 
Defense activities. I would strongly urge the Secretary to carefully 
consider the commission's findings and recommendations as he 
reorganizes the Department to meet the challenges of the new century. 
There is no question that we have the technology to maximize the use of 
space. However, we are missing the leadership to tie together the 
various organizations and technologies and bring a focus on the 
potential that space offers to ensure the security and warfighting 
ability of this Nation.
    Mr. Chairman, I look forward to the commission's report and again 
want to express my appreciation to the commissioners for their 
dedication to this Nation.
    Thank you, Mr. Chairman.

    Senator Allard. We will now proceed. General Fogleman, 
please begin.

      STATEMENT OF GEN. ROBERT R. FOGLEMAN, USAF (RET.), 
 COMMISSIONER; ACCOMPANIED BY ROBERT V. DAVIS, HON. WILLIAM R. 
  GRAHAM, GEN. THOMAS S. MOORMAN, JR., USAF (RET.), AND HON. 
                         MALCOLM WALLOP

    General Fogleman. Thank you, Mr. Chairman, distinguished 
members. It is our pleasure to appear before the subcommittee 
today to report the findings of the Commission to Assess 
National Security Space Management and Organization, which I 
will refer to as the commission from this point forward.
    The commission was established in the National Defense 
Authorization Act for Fiscal Year 2000, and it was directed to 
consider near-, medium-, and long-term changes in the 
management and organization of our national security space 
program. We were specifically directed to assess several items 
in the legislation. In the interest of time, I would ask, Mr. 
Chairman, if I could have that portion of the prepared 
statement entered into the record.
    Senator Allard. Without objection, so ordered.
    General Fogleman. I would like to go right to the scope of 
the commission's assessment, if I could. Our charter was to 
assess the organization and management of space activities that 
support U.S. national security interests. Because we focused on 
national security space, our review centered on the Department 
of Defense and intelligence community space activities. 
However, we also considered civil and commercial activities to 
assess their relationship to and effect on national security 
space.
    The commission examined the role of organization and 
management with respect to national security space in 
developing and implementing national level guidance, 
establishing requirements, acquiring and operating systems, 
planning, program, and budgeting, and meeting the needs of the 
national leadership and the military.
    We focused on near- and mid-term organization and 
management changes that will enable the United States to 
realize the longer-term interest in space. It is important to 
note that we were not asked to evaluate specific space programs 
and capabilities. However, we examined several programs as case 
studies to understand how organizational and management issues 
affect national security space programs.
    The members of this commission were appointed by the 
chairmen and ranking minority members of the House and Senate 
Armed Services Committees and by the Secretary of Defense, in 
consultation with the Director of the Central Intelligence 
Agency. We met 32 times over the course of the 6-month life of 
the commission.
    To augment our own experience in national security space we 
met with 77 present and former senior leaders in national 
security space in Congress, the Department of Defense, the 
intelligence community, NASA, and the aerospace industry. In 
addition, we met numerous times with the members of other 
commissions such as the NIMA and NRO commissions. The 
Department of Defense and the National Reconnaissance Office 
provided the commissioners access to a number of classified 
space programs.
    Moving to the commission's conclusions, findings, and 
recommendations, Mr. Chairman, the commission reached a number 
of unanimous conclusions regarding our national security space 
program. From those conclusions, we developed specific findings 
and recommendations, and I would like to begin by summarizing 
our broad conclusions for the subcommittee.
    The commission concluded that the security and well-being 
of the United States, its allies, and friends depend on the 
Nation's ability to operate in space. We believe it is in the 
U.S. national interest to promote the peaceful use of space, 
use our potential in space to support U.S. domestic, economic, 
diplomatic, and national security objectives, and develop and 
deploy the means to deter and defend against hostile acts 
directed at U.S. space assets and against the use of space in 
ways hostile to U.S. interests.
    The pursuit of our national interest in space requires 
active involvement by the President and responsible senior 
officials. We urge an early review and, as appropriate, 
revision of the national space policy. The policy should 
provide direction and guidance to departments and agencies of 
government to first employ space systems to help speed the 
transformation of the U.S. military into a modern force able to 
deter and defend against evolving threats directed at the 
American homeland and its forward-deployed forces, its allies, 
and its interests abroad and in space.
    Further, this guidance should help develop revolutionary 
methods of collecting intelligence from space to provide the 
President the information necessary to direct the Nation's 
affairs, manage crises, and resolve conflicts in a complex and 
rapidly changing international environment. Additionally, it 
should shape the domestic and international legal and 
regulatory frameworks for space to assure U.S. national 
security interest and to enhance the competitiveness of our 
commercial sector and the effectiveness of the civil space 
sector.
    Additionally, it should promote government and commercial 
investment in leading-edge technologies to assure the U.S. has 
the means to master operations in space and compete in the 
international markets, and finally, create and sustain within 
the government an educated and trained cadre of military and 
civilian space professionals.
    The U.S. Government is becoming ever more dependent on the 
commercial space sector to provide essential services for 
national security operations. To assure the United States 
remains the world's leading spacefaring Nation, the government 
has to become a more reliable consumer of U.S. products and 
should invest in technologies to field systems one generation 
ahead of what is available commercially in the U.S. and enable 
unique national security requirements to be met.
    Additionally, we should encourage the U.S. commercial space 
industry to field systems one generation ahead of international 
competitors.
    Now, the relative dependence of the United States on space 
makes our space systems attractive targets. Many foreign 
nations and entities such as international consortia are 
pursuing space-related activities. Those hostile to the United 
States possess, or can acquire on the global market, the means 
to deny, disrupt, or destroy U.S. space systems by attacking 
the satellites in space, the communications links to and from 
the ground, or the ground stations themselves that command the 
satellites and process their data.
    Therefore, the United States must dedicate sufficient 
intelligence collections and analysis resources to better 
understand the intentions and capabilities of potentially 
hostile states and entities. We must take seriously the 
possibility of an attack on elements of U.S. space systems.
    Today, such an attack may seem improbable and even 
reckless. However, as political economist Thomas Shelling has 
pointed out, ``There is a tendency in our planning to confuse 
the unfamiliar with the improbable. The contingency we have not 
considered looks strange; what looks strange is thought 
improbable; and what is improbable need not be considered 
seriously.''
    I need not remind folks that history is replete with 
instances in which warning signs were ignored and change 
resisted until an external, improbable event forced resistant 
bureaucracies to take action. The question is whether the 
United States will be wise enough to act responsibly and soon 
enough to reduce U.S. space vulnerability. If our leaders 
ensure the Nation's vulnerability is reduced, and that the 
consequences of a surprise in space are limited in their 
effects, we are less likely to experience a space Pearl Harbor.
    Mr. Chairman, these are our broad conclusions. What I would 
like to do now is report our main findings and recommendations.
    Finding number 1. Because our national security depends on 
our ability to operate successfully in space, U.S. space 
interests must be recognized as a top national priority. Only 
the President has the authority to set forth the national space 
policy and provide the guidance and direction senior Government 
officials need to ensure the United States remains the world's 
leading spacefaring Nation. Only presidential leadership can 
assure the necessary cooperation of all space sectors, 
commercial, civil, defense, and intelligence.
    The commission made two recommendations to enhance 
presidential attention to national security space matters. 
First, the President should consider establishing space as a 
national security priority. Second, the President should 
consider the appointment of a presidential space advisory group 
to provide independent advice on developing and employing new 
space capabilities.
    Finding number 2. The United States Government is not 
properly organized to meet the national security space needs of 
the 21st century. After examining a variety of organizational 
changes, the commission concluded that a number of disparate 
space activities should be promptly merged, chains of command 
adjusted, lines of communication opened, and policies modified 
to achieve greater responsibility and accountability.
    Only then can the necessary tradeoffs be made, the 
appropriate priorities be established, and the opportunities 
for improving U.S. military and intelligence capabilities be 
realized. Only when properly managed with the right priorities 
will the United States' space programs both deserve and attract 
the funding that is required.
    The commission made several recommendations regarding 
management and organization in the national security space 
arena. First, the President should direct that a senior 
interagency group for space be established and staffed within 
the National Security Council structure. The current 
interagency process is inadequate to address the growing 
number, range, and complexity of space issues. We need a 
standing interagency process to focus on policy formulation and 
coordination of space activities pertinent to national 
security, and to ensure that representation on domestic and 
international forums effectively reflects U.S. national 
security and other space interests.
    Second, we recommend that an Under Secretary of Defense for 
Space, Intelligence, and Information should be established. 
Until space organizations have more fully evolved, the Office 
of the Secretary of Defense would benefit from having a senior 
level official with sufficient standing to serve as the 
advocate for space within the Defense Department. This official 
would be assigned responsibility to oversee research and 
development, acquisition, launch and operation of space 
intelligence and information assets, coordinate the military 
intelligence activities within the Department, and work with 
the intelligence community on long-range intelligence 
requirements for national security.
    Third, we recommend that the Secretary of Defense should 
end the practice of assigning only an Air Force pilot to the 
position of CINCSPACE and CINCNORAD, and assign responsibility 
for the command of Air Force Space Command to a different four-
star officer. This will allow CINCSPACE to focus on providing 
space-related services to include computer network defense and 
attack missions in support of the operations of other CINCs, 
and national missile defense.
    A further recommendation was that the Air Force should be 
assigned Title 10 responsibility for space and designated the 
executive agent for space within DOD, and the Air Force should 
realign headquarters and field commands to more effectively 
organize, train, and equip for prompt and sustained space 
operations. This involves bringing together the Air Force 
organizations responsible for requirements, research and 
development, acquisition, and operations for space systems into 
a single organization.
    Organizing, training, and equipping for military operations 
is the responsibility of a military service. In the future, a 
space corps, or a separate space force may best meet this 
responsibility. In the near term, the commission believes that 
a realigned, rechartered Air Force is best suited to organize, 
train, and equip space forces. The Army and Navy should 
continue to establish requirements and develop and deploy space 
systems unique to their services.
    A further recommendation was to assign the Under Secretary 
of the Air Force as the Director of the National Reconnaissance 
Office, and designate the Under Secretary of the Air Force as 
the acquisition executive for space.
    We believe the Department of Defense would benefit from the 
appointment of a single official within the Air Force with 
authority for the acquisition of space systems for both the Air 
Force and the NRO based on best practices of each organization.
    Our final recommendation under this finding was that the 
Secretary of Defense should establish a Major Force Program 
(MFP) for space. An MFP would give the Department of Defense 
better visibility into the level and distribution of fiscal and 
personnel resources, thereby improving management and oversight 
of space programs.
    Finding number 3. The Secretary of Defense and the Director 
of Central Intelligence are the two officials primarily 
responsible and accountable for a national security space 
program. They must work closely to set and maintain the course 
for numerous and complex space programs, and to resolve the 
differences that arise between their respective bureaucracies. 
The commission recommends that the Secretary of Defense and the 
Director of Central Intelligence meet regularly to address 
national security space matters.
    Finding number 4. Every medium of transport--air, land, and 
sea--has seen conflict. Space will be no different. The broad 
outline of U.S. national space policy is sound, but the United 
States has not yet taken the steps necessary to develop the 
necessary capabilities to maintain and ensure their continuing 
superiority.
    Space is not simply a place from which information is 
acquired and transmitted, or through which objects pass. It is 
a medium, much the same as air, land, and sea. The United 
States conducts operations to, from, in, and through space in 
support of its national interest both on the earth and within 
space. As with national capabilities in the air, on land, and 
at sea, the United States must have the capabilities to defend 
its space assets against hostile acts, and to negate the 
hostile use of space against U.S. interests.
    Explicit national security guidance and defense policy is 
needed to direct development of doctrine and concepts of 
operations for space capabilities, including weapons systems 
that operate in space, and that can defend assets in orbit and 
augment current air, land, and sea forces. This requires a 
determined strategy for space which in turn must be supported 
by a greater range of space capabilities.
    Space offers advantages for basing systems intended to 
affect air, land, and sea operations. It is possible to project 
power from space in response to events anywhere in the world. 
For example, during a conflict, a military space vehicle could 
attack distant targets within a very short period. Unlike 
weapons from aircraft, land forces, or ships, space missions 
could be carried out with almost no transit, weather, or other 
delay. Having this capability would give the United States an 
extraordinary military advantage.
    Finding number 5. The United States must increase 
investment in science and technology resources. The U.S. 
Government needs to play an active, deliberate role in 
expanding and deepening the pool of military and civilian 
talent in science, engineering, and systems operation that the 
Nation will need. The government also needs to sustain its 
investment in enabling and breakthrough technologies needed to 
maintain national technological leadership.
    The commission made two recommendations to improve science 
and technology. First, the Secretary of Defense and the 
Director of Central Intelligence should direct the creation of 
an office of strategic reconnaissance to conduct research, 
development, and demonstration efforts on breakthrough 
technologies.
    Second, the Secretary of Defense should direct the Defense 
Advanced Research Projects Agency and the military service 
laboratories to continue to develop and demonstrate innovative 
space technology for military missions.
    Mr. Chairman, those are our findings and recommendations. 
In brief conclusion, the commission believes that its 
recommendations, taken as a whole, will enable the United 
States to sustain its position as the world's leading 
spacefaring Nation. Presidential leadership and guidance, 
coupled with a more effective interagency process, and 
especially with improved coordination between the Department of 
Defense and the intelligence community are essential if the 
Nation is to promote and protect its interest in space.
    We thank the subcommittee for its interest and leadership 
in this important arena. We look forward to working with you in 
the future as you consider the implementation of our 
recommendations.
    That concludes my statement, Mr. Chairman.
    [The following four documents: (1) prepared statement of 
General Fogleman; (2) ``Report of the Commission to Assess 
United States National Security Space Management and 
Organization''; (3) ``Executive Summary, Report of the 
Commission to Assess United States National Security Space 
Management and Organization''; and (4) ``Appendices: Staff 
Background Papers, Report of the Commission to Assess United 
States National Security Space Management and Organization'' 
follow:]
             Prepared Statement by Gen. Robert R. Fogleman
                              introduction
    Mr. Chairman and distinguished members, it is our pleasure to 
appear before the committee today to report the findings of the 
Commission to Assess U.S. National Security Space Management and 
Organization, which I will refer to as the ``Commission'' from this 
point forward.
    This Commission was established in the National Defense 
Authorization Act for Fiscal Year 2000 and was directed to consider 
near-, medium- and long-term changes to the management and organization 
of our national security space program. We were specifically directed 
to assess:

          (1) The manner in which military space assets may be 
        exploited to provide support for United States military 
        operations.
          (2) The current interagency coordination process regarding 
        the operation of national security space assets, including 
        identification of interoperability and communications issues.
          (3) The relationship between the intelligence and defense 
        aspects of national security space . . . and the potential 
        costs and benefits of a partial or complete merger of the 
        programs, projects, or activities that are differentiated by 
        those two aspects.
          (4) The manner in which military space issues are addressed 
        by professional military education institutions.
          (5) The potential costs and benefits of establishing:

                  (A) An independent military department and service 
                dedicated to the national security space mission.
                  (B) A corps within the Air Force dedicated to the 
                national security space mission.
                  (C) A position of Assistant Secretary of Defense for 
                Space within the Office of the Secretary of Defense.
                  (D) A new major force program, or other budget 
                mechanism, for managing national security space funding 
                within the Department of Defense.
                  (E) Any other change in the existing organizational 
                structure of the Department of Defense for national 
                security space management and organization.

    Shortly before the Commission began its work, the National Defense 
Authorization Act for Fiscal Year 2001 amended the Commission mandate, 
asking us also to consider the advisability of:

        (1) Ending the requirement for specified officers in the United 
        States Space Command to be flight rated that results from the 
        dual assignment of such officers to that command and to one or 
        more other commands for which the officers are expressly 
        required to be flight rated;
        (2) The establishment of a requirement that all new general or 
        flag officers of the United States Space Command have 
        experience in space, missile, or information operations that is 
        either acquisition experience or operational experience; and
        (3) Rotating the command of the United States Space Command 
        among the Armed Forces.
                  scope of the commission's assessment
    Our charter was to assess the organization and management of space 
activities that support U.S. national security interests. Because we 
focused on national security space, our review centered on Department 
of Defense (DOD) and Intelligence Community space activities. However, 
we also considered civil and commercial activities to assess their 
relationship to and effect on national security space. The Commission 
examined the role of organization and management, with respect to 
national security space, in:

        <bullet> Developing and implementing national-level guidance;
        <bullet> Establishing requirements;
        <bullet> Acquiring and operating systems;
        <bullet> Planning, programming, and budgeting; and
        <bullet> Meeting the needs of the national leadership and the 
        military.

    We focused on near- and mid-term organization and management 
changes that will enable the U.S. to realize its longer-term interests 
in space. It is important to note that we were not asked to evaluate 
specific space programs and capabilities. However, we examined several 
programs as case studies to understand how organizational and 
management issues affect national security space programs.
    The members of this Commission were appointed by the chairmen and 
ranking minority members of the House and Senate Armed Services 
Committees, and by the Secretary of Defense in consultation with the 
Director of Central Intelligence. We met 32 times over the course of 
the 6-month life of the Commission. To augment our own experience in 
national security space, we met with 77 present and former senior 
leaders in Congress, Department of Defense, the Intelligence Community, 
NASA, and the aerospace industry. In addition, we met numerous times 
with the members of other Commissions, such as the NIMA and NRO 
Commissions. The Department of Defense and National Reconnaissance 
Office provided the Commissioners access to a number of classified 
space programs.
         commission conclusions, findings, and recommendations
    Mr. Chairman, the Commission reached a number of unanimous 
conclusions regarding our national security space program. From those 
conclusions we developed specific findings and recommendations. I would 
like to begin by summarizing our broad conclusions for the committee.
    The Commission concluded that the security and well-being of the 
United States, its allies, and friends depend on the nation's ability 
to operate in space. We believe that it is in the U.S. national 
interest to:

        <bullet> Promote the peaceful use of space;
        <bullet> Use our potential in space to support U.S. domestic, 
        economic, diplomatic and national security objectives; and
        <bullet> Develop and deploy the means to deter and defend 
        against hostile acts directed at U.S. space assets and against 
        the use of space in ways hostile to U.S. interests.

    The pursuit of our national interests in space requires active 
involvement by the President and responsible senior officials. We urge 
an early review and, as appropriate, revision of the national space 
policy. The policy should provide direction and guidance for 
departments and agencies of government to:

        <bullet> Employ space systems to help to speed the 
        transformation of the U.S. military into a modern force able to 
        deter and defend against evolving threats directed at the 
        American homeland, its forward deployed forces, its allies, and 
        its interests abroad and in space.
        <bullet> Develop revolutionary methods of collecting 
        intelligence from space to provide the President the 
        information necessary to direct the nation's affairs, manage 
        crises, and resolve conflicts in a complex and rapidly changing 
        international environment.
        <bullet> Shape the domestic and international legal and 
        regulatory frameworks for space to assure U.S. national 
        security interests and to enhance the competitiveness of the 
        commercial sector and the effectiveness of the civil space 
        sector.
        <bullet> Promote government and commercial investment in 
        leading-edge technologies to assure that the U.S. has the means 
        to master operations in space and compete in international 
        markets.
        <bullet> Create and sustain within the government an educated 
        and trained cadre of military and civilian space professionals.

    The U.S. government is becoming ever more dependent on the 
commercial space sector to provide essential services for national 
security operations. To assure the United States remains the world's 
leading space-faring nation, the government has to become a more 
reliable consumer of U.S. products and should:

        <bullet> Invest in technologies to field systems one generation 
        ahead of what is available commercially in the U.S. and enable 
        unique national security requirements to be met.
        <bullet> Encourage the U.S. commercial space industry to field 
        systems one generation ahead of international competitors.

    The relative dependence of the U.S. on space makes our space 
systems attractive targets. Many foreign nations and entities such as 
international consortia are pursuing space-related activities. Those 
hostile to the U.S. possess, or can acquire on the global market, the 
means to deny, disrupt, or destroy U.S. space systems by attacking the 
satellites in space, the communications links to and from the ground, 
or the ground stations that command the satellites and process their 
data. Therefore, the U.S. must dedicate sufficient intelligence 
collection and analysis resources to better understand the intentions 
and capabilities of potentially hostile states and entities.
    We must take seriously the possibility of an attack on elements of 
U.S. space systems. Today such an attack may seem improbable, and even 
reckless. However, as political economist Thomas Schelling has pointed 
out, ``There is a tendency in our planning to confuse the unfamiliar 
with the improbable. The contingency we have not considered looks 
strange; what looks strange is thought improbable; what is improbable 
need not be considered seriously.'' History is replete with instances 
in which warning signs were ignored and change resisted until an 
external, ``improbable'' event forced resistant bureaucracies to take 
action. The question is whether the U.S. will be wise enough to act 
responsibly and soon enough to reduce U.S. space vulnerability. If our 
leaders assure that the nation's vulnerability is reduced and that the 
consequences of a surprise in space are limited in their effects, we 
are less likely to experience a `Space Pearl Harbor.'
    Mr. Chairman, these are our broad conclusions. I would now like to 
report our main findings and recommendations:
Finding 1
    Because our national security depends on our ability to operate 
successfully in space, U.S. space interests must be recognized as a top 
national security priority. Only the President has the authority to set 
forth the national space policy, and provide the guidance and direction 
to senior government officials, needed to ensure the United States 
remains the world's leading space-faring nation. Only Presidential 
leadership can assure the necessary cooperation of all space sectors--
commercial, civil, defense, and intelligence.
    The Commission made two recommendations to enhance Presidential 
attention to national security space matters:

        <bullet> First, the President should consider establishing 
        space as a national security priority.
        <bullet> Second, the President should consider the appointment 
        of a Presidential Space Advisory Group to provide independent 
        advice on developing and employing new space capabilities.

Finding 2
    The U.S. Government is not properly organized to meet the national 
security space needs of the 21st century. After examining a variety of 
organizational changes, the Commission concluded that a number of 
disparate space activities should promptly be merged, chains of command 
adjusted, lines of communication opened, and policies modified to 
achieve greater responsibility and accountability. Only then can the 
necessary trade-offs be made, the appropriate priorities be 
established, and the opportunities for improving U.S. military and 
intelligence capabilities be realized. Only when properly managed, with 
the right priorities, will U.S. space programs both deserve and attract 
the funding that is required.
    The Commission made several recommendations regarding management 
and organization in the national security space arena:

        <bullet> The President should direct that a Senior Interagency 
        Group for Space be established and staffed within the National 
        Security Council structure. The current interagency process is 
        inadequate to address the growing number, range, and complexity 
        of space issues. We need a standing interagency process to 
        focus on policy formulation and coordination of space 
        activities pertinent to national security, and to ensure that 
        representation in domestic and international forums effectively 
        reflects U.S. national security and other space interests.
        <bullet> An Under Secretary of Defense for Space, Intelligence, 
        and Information should be established. Until space 
        organizations have more fully evolved, the Office of the 
        Secretary of Defense would benefit from having a senior-level 
        official with sufficient standing to serve as the advocate for 
        space within the Defense Department. This official would be 
        assigned responsibility to oversee research and development, 
        acquisition, launch and operation of space, intelligence and 
        information assets; coordinate the military intelligence 
        activities within the Department; and work with the 
        Intelligence Community on long-range intelligence requirements 
        for national security.
        <bullet> The Secretary of Defense should end the practice of 
        assigning only an Air Force pilot to the position of CINCSPACE 
        and CINCNORAD, and assign responsibility for the Command of Air 
        Force Space Command to a different four star officer. This will 
        allow CINCSPACE to focus on providing space-related services, 
        to include computer network defense and attack missions in 
        support of the operations of the other ClNCs, and national 
        missile defense.
        <bullet> The Air Force should be assigned Title 10 
        responsibility for space and designated the Executive Agent for 
        space within DOD; and the Air Force should realign headquarters 
        and field commands to more effectively organize, train, and 
        equip for prompt and sustained space operations. This involves 
        bringing together the Air Force organizations responsible for 
        requirements, research and development, acquisition, and 
        operations for space systems into a single organization. 
        Organizing, training, and equipping for military operations is 
        the responsibility of a military service. In the future, a 
        Space Corps or a separate Space Force may best meet this 
        responsibility. In the near term, the Commission believes that 
        a realigned, rechartered Air Force is best suited to organize, 
        train, and equip space forces. The Army and Navy should 
        continue to establish requirements and develop and deploy space 
        systems unique to their Services.
        <bullet> Assign the Under Secretary of the Air Force as the 
        Director of the National Reconnaissance Office. Designate the 
        Under Secretary as the Air Force Acquisition Executive for 
        Space. The Department of Defense would benefit from the 
        appointment of a single official within the Air Force with 
        authority for the acquisition of space systems for both the Air 
        Force and the NRO based on the ``best practices'' of each 
        organization.
        <bullet> The Secretary of Defense should establish a Major 
        Force Program (MFP) for Space. An MFP would give the Department 
        of Defense better visibility into the level and distribution of 
        fiscal and personnel resources, thereby improving management 
        and oversight of space programs.

Finding 3
    The Secretary of Defense and the Director of Central Intelligence 
are the two officials primarily responsible and accountable for the 
national security space program. They must work closely to set and 
maintain the course for numerous and complex space programs and to 
resolve the differences that arise between their respective 
bureaucracies.

        <bullet> The Commission recommends that the Secretary of 
        Defense and the Director of Central Intelligence meet regularly 
        to address national security space matters.

Finding 4
    Every medium of transport--air, land, and sea--has seen conflict. 
Space will be no different. The broad outline of U.S. national space 
policy is sound, but the U.S. has not yet taken the steps necessary to 
develop the necessary capabilities and to maintain and ensure their 
continuing superiority.
    Space is not simply a place from which information is acquired and 
transmitted or through which objects pass. It is a medium much the same 
as air, land, or sea. The U.S. conducts operations to, from, in, and 
through space in support of its national interests both on the earth 
and in space. As with national capabilities in the air, on land, and at 
sea, the U.S. must have the capabilities to defend its space assets 
against hostile acts and to negate the hostile use of space against 
U.S. interests.
    Explicit national security guidance and defense policy is needed to 
direct development of doctrine and concepts of operations for space 
capabilities, including weapons systems that operate in space and that 
can defend assets in orbit and augment current air, land, and sea 
forces. This requires a deterrence strategy for space, which in turn 
must be supported by a greater range of space capabilities.
    Space offers advantages for basing systems intended to affect air, 
land, and sea operations. It is possible to project power from space in 
response to events anywhere in the world. For example, during a 
conflict a military space plane could attack distant targets within a 
very short period. Unlike weapons from aircraft, land forces, or ships, 
space missions could be carried out with almost no transit, weather, or 
other delay. Having this capability would give the U.S. an 
extraordinary military advantage.
Finding 5
    The U.S. must increase investment in science and technology 
resources. The U.S. government needs to play an active, deliberate role 
in expanding and deepening the pool of military and civilian talent in 
science, engineering, and systems operations that the nation will need. 
The government also needs to sustain its investment in enabling and 
breakthrough technologies needed to maintain national technological 
leadership.
    The Commission made two recommendations to improve science and 
technology.

        <bullet> First, the Secretary of Defense and the Director of 
        Central Intelligence should direct the creation of an Office of 
        Strategic Reconnaissance to conduct research, development, and 
        demonstration efforts on breakthrough technologies.
        <bullet> Second, the Secretary of Defense should direct the 
        Defense Advanced Research Projects Agency and the military 
        service laboratories to continue to develop and demonstrate 
        innovative space technology for military missions.
                               conclusion
    The Commission believes that its recommendations, taken as a whole, 
will enable the U.S. to sustain its position as the world's leading 
space-faring nation. Presidential leadership and guidance, coupled with 
a more effective interagency process and especially with improved 
coordination between the Department of Defense and the Intelligence 
Community, are essential if the Nation is to promote and protect its 
interests in space. We thank the committee for its interest and 
leadership in this important area and look forward to working with you 
in the future as you consider the implementation of our 
recommendations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Allard. Thank you, General. I have some members 
here that have shown up. I want to recognize my ranking member, 
Senator Reed, for an opening statement if he so wishes.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Mr. Chairman, I will put my statement in the 
record.
                Prepared Statement by Senator Jack Reed
    Good afternoon. It is a pleasure to join with Senator Allard in 
welcoming the members of the Space Commission to the Armed Services 
Committee. I, too, want to thank each of you here today, as well as 
your colleagues who were unable to be here, for your service to 
Congress and the Department of Defense by sitting on this commission. 
Charged with examining the management and organization of space for 
today and the future, the commission looked both at national security 
space organization and issues, as well as the interactions between the 
military and the larger space community.
    The unanimous organizational recommendations of the commission's 
report would, if implemented, set the Defense Department on a course to 
have a more integrated, far more independent, space community. We look 
forward to discussing these organizational recommendations and the pros 
and cons of implementation.
    We are already aware of discussion and debate on several of the 
recommendations dealing with the organization and management of space 
including:

        <bullet> the recommendation to have two acquisition executives 
        for the Air Force;
        <bullet> the recommendation to have the Air Force be the 
        executive agent for space and have Title 10 responsibility to 
        organize, train, and equip for prompt and sustained offensive 
        and defensive operations in air and space; and
        <bullet> the recommendation to create an Under Secretary of 
        Defense for Space, Intelligence, and Information.

    Other recommendations appear to be less controversial such as:

        <bullet> assigning responsibility for command of the Air Force 
        Space Command to a four-star officer other than CINCSpace/
        CINCNORAD; and
        <bullet> ending the practice of assigning only Air Force 
        flight-rated officers to the position of CINCSpace/CINCNORAD.

    The commission recognizes that both the military and civil uses of 
space will increase and that the U.S. Government's reliance on space 
for national security will become more closely tied to commercial space 
assets. As a result, the United States must prepare for this growing 
global dependence and reliance on space. Potentially, one of the most 
important recommendations in the commission's report is the need for 
the United States to participate actively in shaping the space legal 
and regulatory environment. The commission concluded that in order to 
protect the country's interest, the United States must promote the 
peaceful use of space, monitor activities of regulatory bodies, and 
protect the rights of nations to defend their interests in and from 
space.
    The commission examined United States objectives for space and how 
to organize and manage for future national security space issues. We 
look forward to discussing all of the commission's conclusions and 
organizational recommendations.

    Senator Allard. Senator Smith, my predecessor on this 
subcommittee, I wonder if you have any comments.

                 STATEMENT OF SENATOR BOB SMITH

    Senator Smith. Just briefly, Mr. Chairman. I thank you for 
your continued leadership on space issues. I certainly thank 
the members of the commission.
    Senator Wallop, it seems funny to see you on that side of 
the table. How does it feel over there?
    Senator Wallop. A little bit freer. [Laughter.]
    Senator Smith. Although this happens to be the Armed 
Services Committee, space offers so much more to the Nation, as 
you all know, than just defense. Over the years we have seen 
commercial products as simple as velcro spin out of the space 
program, so we have come a long way. Global Positioning System 
(GPS) is another. I'm sure Senator Akaka, who is a member of 
the Armed Services Committee, would be very interested in how 
he might be able to get to Hawaii in 45 minutes on a space 
plane.
    There is all kinds of domestic application, but militarily, 
after 42 years as a spacefaring Nation, I think it is time that 
we stepped back and assessed our space organization just in 
terms of how it affects the national security and, as your 
report points out, we know from history that every medium--air, 
land, and sea--has seen conflict, and reality indicates space 
will be no different, and that is true.
    The candlemakers opposed Edison, and so I expect that we 
will probably have a lot of opposition, but we are on the 
cutting edge. We are right; I think we will look back at this 
time 20 or 30 years from now, and we will then be proven right. 
We have accomplished a great deal from what is ultimately the 
high ground. Ronald Reagan certainly led the way in terms of 
the military application, but as we posture for the future 
there is a lot more we need to do.
    We need to defend our space-based information superiority, 
we need to deny our adversaries that same capability to use 
against us, and we need to develop better ways to leverage the 
potential of space to be more capable and cost-effective, and 
most of all we need a strong advocate for military space.
    We appreciate all the work of the commission. You are the 
Nation's experts. As a matter of fact, I talked to your former 
chairman, the Secretary of Defense, this morning about this 
very thing. It was a very interesting conversation. I am proud 
of your efforts and look forward to working with you.
    Thank you, Mr. Chairman. Thank you for your leadership.
    Senator Allard. Thank you for your leadership in this 
issue.
    Senator Sessions.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Just briefly, I think I can recall what 
Secretary Rumsfeld said at the hearing, the question was 
something like, do we really have to take warfare to space, and 
he said, ``We have had warfare on the land, we have had warfare 
on the water, we had warfare in the air, and we are going to 
have warfare in space, and we need to be prepared to prevail in 
space, and we have that capability, and we must maintain 
superiority there.''
    Mr. Chairman, thank you for calling this hearing, and I 
look forward to hearing the testimony.
    Senator Allard. I thank the Senator from Alabama.
    I want to start the questioning with a general question. I 
just want to ask the members of the commission what they 
thought was the most problematic aspect of the current approach 
to U.S. national security space management and organization.
    General Fogleman. The most problematic?
    Senator Allard. Yes.
    General Fogleman. Does anybody want to take that before I 
do?
    Mr. Graham. I have one comment on that. I remember reading 
the history of the Army Air Corps developing in the Army, and 
the struggles they had in the 1920s and 1930s being recognized 
as an important discipline to our national security, at the 
same time they were developing aircraft technology tactics and 
strategy for aerial warfare. I think today we face some of the 
same challenges with space, which is now largely embedded in 
the extremely competent part of our military forces, the U.S. 
Air Force, but one that has come from origins of air warfare 
and is still largely developed and devoted to air warfare.
    We are very fortunate we do have such a competent fighting 
force. At the same time, they necessarily have an ambivalence 
on the role of space because of that, and because of their 
focus historically on air power. Therefore we believe it is 
very important, I believe, at least, that it is very important 
that the Air Force also acknowledge the necessity of developing 
a cadre of officers competent in space and space-related 
activities: tactics, research and development, systems and so 
on, and that the Air Force nurture and promote that cadre.
    To do that we suggest that the Air Force look to the model 
of the nuclear Navy. The nuclear-propulsion Navy inside the 
U.S. Navy is not a corps, and it certainly is not a separate 
service, but it is very much a distinct cadre of extremely 
competent and capable people. We thought the Air Force might 
use that as a guide to develop the space capability along with, 
and not to diminish, but in parallel with its air-fighting 
capability.
    To my mind, even though I am an engineer and a scientist, I 
thought that was one of the most important concerns we have 
today, and one of the most important recommendations of the 
commission.
    Senator Allard. Thank you. In light of this question, maybe 
I ought to give other commission members an opportunity to make 
any comments they may want to have as far as the commission 
report is concerned.
    Senator Wallop.
    Senator Wallop. Thank you, Mr. Chairman and Senator Smith. 
Thank you for having the foresight and energy to essentially 
establish this commission, because I think it was a help. What 
we found was the Nation with all kinds of space skills and no 
space focus, no place, no organizational structure around which 
it could focus, no place for a champion. Congress reflects 
that. Minimally it requires six committees to get anything 
approved for space, as many as 16, it can be, and Congress is 
merely a reflection of the executive branch's lack of focus on 
it.
    Most of the commission's recommendations go towards 
streamlining that and putting sites of attention in place, 
beginning with the Office of the President, because absent the 
strong advocacy from the Office of the President, the same 
chaos we currently have will prevail.
    But one of the things that has not been mentioned and needs 
to be is, there is a little bitty paragraph in here about 
Congress. I was anxious to be more aggressive in that, but my 
colleagues were more tender-hearted towards those who had 
established us. But seriously, Congress does need to look at 
how it views space and how it organizes itself to do that, 
because there is no space champion.
    I mean, Senator Smith, you have been, but there is--the 
ability for Congress to focus between the two Houses, let alone 
within each House, is virtually nonexistent. You have the 
Budget Committee, Senate Armed Services Committee, Senate 
Appropriations Committee, Select Committee on Intelligence, 
Commerce Committee, and on and on, all of which have slightly 
different views.
    If the Nation is going to come together, and what we hope 
will reflect what comes out of the executive branch, Congress 
needs to look inward and see if it can't perhaps establish a 
little, joint commission or committee between the two Houses to 
make recommendations to the major committees.
    But my own view would be that, having served on both the 
Senate Select Committee on Intelligence and the Senate Armed 
Services Committee, I believe the Senate Armed Services 
Committee ought to be the sole authorizing body, that the 
Select Committee on Intelligence ought to be oversight, and 
that there ought to be cross-fertilization of membership that 
would make it possible for those who are on the Intelligence 
Committee to be heard in the process of authorization and 
appropriations. But we just have to streamline this process.
    Senator Allard. General Moorman, did you have any comments 
on problematic aspects of what is happening now, or maybe even 
on the commission report generally?
    General Moorman. General Fogleman covered the breadth of 
our report pretty comprehensively. I thought I might touch on a 
couple of thematics to put into context our findings and 
recommendations, and one of them speaks to what Senator Wallop 
said. Given the criticality, dependency, our vulnerability, and 
the absolute importance to space for our economy, as well as 
our national security, a way of thinking about our 
organizational recommendations and our themes is that in all 
cases we raise the level at which space was considered within 
the bureaucracy.
    As Senator Wallop spoke to, it starts with the President 
and the national space policy, but that is an extremely 
important theme. We concluded that there was not focus, and the 
focus certainly was not at a high enough level.
    Another thematic, which I personally believe needed 
attention, was the issue of the interdependency of the various 
space sectors. It is a part of the criticality of space to the 
country that Senator Smith pointed out in spades, and that is 
that we have four space sectors: military, intelligence, civil, 
and commercial.
    Our commission primarily addressed the military and the 
intelligence sectors, but our group was fairly critical of the 
interagency process that we have seen over the course of the 
last 10 years or so in addressing critical space issues that 
affect all four of those sectors. If you consider those sectors 
as in a Venn diagram, they are all converging, and almost all 
issues have some implication across those four sectors. We have 
to do a better job in working the intra-agency process.
    A third issue or thematic that I would like to emphasize 
General Fogleman spoke to, that is the issue of the science and 
technology resources of the country and the industrial base of 
the country. The words that we use in the report are, the U.S. 
Government must pay attention to stimulating the industry and 
ensuring we have the proper training and talent to continue to 
be the premier spacefaring nation in the world. We saw in the 
course of our study some significant erosion in that position 
over the past several years.
    Finally, space in a strictly military sense is absolutely 
crucial to the transformation of the U.S. military. I think 
over the course of this congressional cycle you are going to 
hear a lot about transformation and a lot about revolution in 
military affairs and those kinds of things. Every one of the 
vision documents and every one of the concepts of operations 
all depend upon space as the enabler for information or 
decision superiority.
    So again, I want to join General Fogleman and Senator 
Wallop in commending you, Senator Smith, for getting this going 
and Congress for shining a bright light on this crucial issue.
    Senator Allard. Mr. Davis, did you have anything you would 
like to add?
    Mr. Davis. Yes, sir, just a few comments. The conclusions 
of the commission were unanimous. I am as appreciative as 
anybody else for work that Senator Smith and this committee 
took. It is important for the country.
    But I am a little concerned as we look across the four 
sectors of space, military, intelligence, defense, and civil. 
General Moorman mentioned the civil and the interagency 
process, we are maybe not focusing enough on the commercial 
sector. I say that because we are a commission that focused on 
the organization and management of the U.S. Government side of 
all this. The Defense Department and the intelligence community 
do not invent technologies, they do not design satellites, they 
do not build space hardware. Increasingly the commercial world 
is operating space hardware on a contract basis for the Defense 
Department, and that is fine, but that is a critical role for 
the commercial sector.
    I went through the report, and these are just simply quotes 
straight out of our report in terms of our conclusions with 
regard to the commercial sector, and they are not presented as 
such in one place, but when they are taken together, I think it 
is a fairly compelling statement.
    The first quote is that ``the U.S. Government has no 
comprehensive approach towards incorporating commercial and 
civil space capabilities into its national security space 
architecture.''
    Second, ``the U.S. Government does not have well-defined 
policies to enhance the competitiveness of the commercial and 
civil industries.''
    Third, ``privatizing the maintenance and operations of the 
launch infrastructure is a valid consideration as long as the 
U.S. Government retains control of certain governmental 
functions such as critical safety decisions.''
    Fourth, ``the U.S. industry deserves timely responses from 
the U.S. Government in the approval or denial of licenses. 
Unfortunately, the current process produces long delays in 
licensing approval. Delay is damaging to U.S. industry in 
today's fast-paced international markets.''
    Fifth, ``DOD builds capabilities that could be perhaps more 
economically provided by the commercial sector. DOD should buy 
commercial services and products unless a unique requirement 
can be justified.'' There is imagery, communications, launch 
infrastructure, several areas.
    Finally, and it basically summarizes all of these, ``the 
U.S. Government as a consumer, a regulator, or an investor is 
currently not a good partner to the national security space 
industry.''
    So my point in all this is that we were not invented to go 
address the relationship of the commercial sector. As Congress 
and this committee in particular are considering the approaches 
that must be taken and the legislation that must be passed to 
implement the commission's findings, you must pay special 
attention to how these are going to play out, because 
ultimately the government can structure itself however it 
wants, but industry is going to have to go build and operate 
much of what the government needs in the future.
    General Fogleman. Sir, I would just very briefly say the 
following. There were problematic issues on two levels. One was 
a strategic level, the other a tactical. On the strategic level 
it has been stated across the table here from the commissioners 
there was just a lack of high-level focus at the national level 
to bring this together.
    If you go look at our space program, an analogy for an 
aviator is that in terms of national attention and focus, this 
thing is on auto pilot. It is what is going on within each 
stove pipe. There is no real focus, and we try to address that.
    On the tactical level, and here we get down within the Air 
Force, I think there was a real lack of appreciation of the 
uniqueness of space, and it was not that anybody was trying to 
be evil. I think it was that folks were trying very hard to 
integrate space and air operations, but again, it is analogous 
of what happened with the U.S. Army Air Corps and the United 
States Army in the 1920s and 1930s. We all know the stories. 
Aviators were looked upon just the same as any other officer, 
or any Army officer. There were years that they still had to 
wear their spurs when they went to fly or they were out of 
uniform.
    Well, we think we picked up on a few of those kinds of 
things, and so on that level this appreciation of the 
uniqueness of space was really what drove us to make some 
recommendations relative to organization and management.
    Senator Allard. Mr. Graham, I expanded the question a 
little bit after you made your comments. Did you have anything 
further you wanted to say?
    Mr. Graham. No, Senator.
    Senator Allard. Let me go ahead and call on Senator Reed 
now to ask questions.
    Senator Reed. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your great work on the space commission. Let me 
raise a general question, and ask you to respond. Is it your 
recommendation that the United States should have the ability 
to develop and deploy the means to defer and defend against 
hostile acts directed at our space assets, and also against the 
use of space hostile to the United States and our national 
interests? Many might read this as a mandate or a strong 
recommendation to weaponize space. Is that your conclusion that 
we do that? General Fogleman, you might start, or General 
Moorman.
    General Fogleman. Tom, do you want to start?
    General Moorman. No, we do not see it in the context of a 
mandate. I think Senator Smith mentioned it and others. We made 
a major point in our findings to take a historical sweep and 
look at the fact that every medium has been an arena for 
conflict, and if that is in the future, and because of our 
tremendous dependency and our vulnerability, we must develop 
the capability to deter and to defend. In the view of the 
commission, it is irresponsible not to worry in that kind of 
context.
    But no, the emphasis in our report was not weaponization of 
space, but rather to make sure that we can deter and defend our 
critically vulnerable assets now, and things which we are 
tremendously vulnerable.
    Senator Allard. General Fogleman.
    General Fogleman. Yes, Senator. I think what we were really 
trying to do here was alert people to the fact that the ability 
to restrict or deny freedom of access to operations in space is 
really no longer limited to global military powers. This 
capability can be bought. This capability is being talked about 
by folks today.
    One of the things that we quote was a July 2000 news agency 
report that China's military is developing methods and 
strategies for defeating the U.S. military in high-tech and 
space-based future wars. We went back and looked, for instance, 
at the pager incident here in the United States, and while we 
have no reason to believe that that was a hostile act, 
interestingly enough we have no way to prove that it was not. 
We talked to the Commander in Chief of the Space Command, he 
confirmed that that is the situation today, and we think that 
this is unacceptable.
    I think if you were to ask us to prioritize what are the 
things that we want to do first to start us down this path, the 
first thing that we believe, and I think I speak for the entire 
commission here, is that we need to improve our space 
situational awareness. That used to be called space 
surveillance, but it is the idea that the United States of 
America ought to know any time anybody sends something into 
space, what it is, what its function will be, and we ought to 
be able to track that at all times. That is the beginning, 
situational awareness.
    Senator Reed. How far are we away from that capability?
    General Fogleman. I would tell you again, based on 
testimony, this is a capability that is eroding every day. We 
have a space surveillance system. It is inadequate because, of 
course, more and more objects are being put into space. It is 
taxing old technology and, quite frankly, again, General 
Moorman and others here may have more technical knowledge of 
this, but this to me is an area in which we need to invest some 
money.
    General Moorman. Can I approach that for a bit, Mr. 
Chairman? You asked a question, a pretty provocative question 
at the beginning about what is problematic. In my view, the 
thing I worry the most about in this context is exactly what 
General Fogleman is talking about. That is that right now, 
because our space situational awareness has eroded, and it 
never was all that great, our tendency will be to explain away 
events as natural phenomena. As General Fogleman points out, 
the ability of a multitude of countries, or non-state actors to 
interfere with these assets is here today.
    I just want to reinforce what General Fogleman said. I 
worry that we will not be able to do that without significant 
investment. If I had to put at the top of the list the thing 
that you want to do to be able to go down that path to better 
deter and defend, it is to understand what is going on up 
there, and what the threats are to your systems.
    Senator Wallop. Senator, could I just make a few quick 
observations on that, because it is a good question, and the 
language of it is always troublesome, but the right of self 
defense has never been argued in this world in any of the 
treaties or any other place.
    We have seen, I think General Fogleman or General Moorman 
mentioned, that the Chinese had it in the papers, that they 
were going to try to develop the ability to interfere with our 
military capacity, but this country's dependence on space for 
its civilian commercial status is enormous, to say nothing of 
its military status.
    We see, for example, the Russians marketing a little thing 
that--there are photographs of it--that can neutralize GPS. It 
does not have a big area of effect, but if you were to walk 
into the middle of Kennedy Airport and affect GPS, you would 
play havoc with the stuff, our banks, our stock markets, our 
telecommunications, all kinds of other things, so the more 
dependent we are, the more vulnerable we are, the more certain 
it is we are going to have to find the means to defend these 
assets.
    Going way back to Eisenhower, there has always been the 
statement that we will not yield sovereignty. An attack on any 
of our assets in space would be viewed as an attack on national 
sovereignty. It is the same thing we do in the seas. We talk 
about the peaceful oceans and provide it by use of our military 
powers. We secure it for a lot of other nations besides 
ourselves.
    At some moment in time we are going to have to realize our 
dependence on it has grown to such an extent that, were we to 
walk away from it, we would create a vulnerability the likes of 
which this country has probably never known.
    Senator Reed. Thank you.
    Mr. Davis. Mr. Chairman, might I add one comment to that? 
There is an American in space right now as we are sitting here, 
and unless the universe as we know it changes drastically there 
may well be an American in space from here on out with the 
space station up there.
    I think it is in the American psyche that, wherever we are 
in the world, as long as we are law-abiding citizens and going 
about our business, that if we get in trouble the State 
Department will show up to ask a question about us and, if 
necessary, the Rangers or somebody will be sent in to get us, 
and that is the typical American attitude, I think, if you go 
out and talk to somebody on the street.
    How do we do that in space? It is an issue to grapple with. 
There is an American there now, and most likely will continue 
to be an American there.
    Weapons in space does not necessarily mean a physical 
weapon in space. When we talked about space in the commission, 
we talked about end-to-end, ground-to-ground, and it is into, 
through, and from space. The simplest solution to a space 
problem may be to attack a ground station here on earth, or 
some other approach to some system problem that affects space, 
so it is simply not necessarily ordnance in space when you talk 
about the ability to protect American interests, but that is a 
problematical issue, Mr. Chairman, as you define it.
    Mr. Graham. Senator, I think Senator Wallop has put this in 
the right context, first, that the U.S. does have both an 
obligation and a right to protect ourselves from hostile uses 
of space and, second, in drawing the analogue with our Navy, 
one can argue that our blue water Navy has militarized the 
oceans. I would not object to that characterization, but I 
certainly would point out that the safest regions of our oceans 
and the international oceans generally are where our U.S. Navy 
has a presence, and the most dangerous regions of the oceans 
are where they have the least presence. I believe space will be 
much that way as well.
    In fact, for example, if the Iraqis had been able to 
observe, from space or otherwise, the left hook formation that 
we used in the Persian Gulf War so successfully, that would 
have been a much more bloody battle with questionable outcome 
had they had the assets to observe that from space, I would at 
least have argued that we should have taken them out, either by 
ground communications or by space systems, if necessary.
    So I come to the view that having the U.S. able to protect 
its interests is the dominant issue, and that has, in fact, 
served the purpose of the peace for going on two centuries now, 
and that we should do that in space, and that may from time to 
time require placing weapons in space, and in those 
circumstances we should by all means do it.
    Senator Reed. Thank you. My time has expired. Thank you, 
General.
    Senator Allard. Thank you.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Mr. Graham, let me just pick right up on that. I think, I 
guess, we might take the view that if somebody's going to 
militarize space, it might as well be us, since we know that we 
will use it for peaceful purposes as opposed to the purposes of 
some other aggressor nation.
    I think we also have to be careful to draw a distinction, 
as I think we always do--we talk about weaponization of space 
between defensive weapons and offensive weapons. It may come to 
offensive, but what we are looking for right now for the most 
part in the immediate future are defensive, such as the space-
based laser which can nail a missile in the boost phase, and I 
think, I guess, as we talk about those types of capabilities, I 
think we need to look at whatever impediments there may be in 
international law on that and maybe the panel could speak to 
that.
    Senator Wallop, I have heard you speak to it before, but do 
you see any impediments in international law that would cause 
us to have problems even in defensive weapons in space?
    Senator Wallop. The answer is, no, but we come perilously 
close to it on a number of occasions. Most of the treaty 
regimes that control the peaceful use of space and other things 
are essentially arms control, and arms control is for the 
prevention or the hoped-for prevention of hostilities, but 
there is nothing in arms control that says that if it does not 
control, and hostilities break out, that a nation must submit 
to defeat rather than defend itself.
    Going back to Eisenhower, they asserted that there is no 
prohibition on nonaggressive military activity in space, and 
that was after the Soviets launched Sputnik, which they claim 
to have done us a great favor, because there was an argument as 
to whether your sovereign space was directly over your 
territory or whether, like in the sea, you have a 5-mile limit 
or something, and when the Soviets launched Sputnik and it went 
around the world, it automatically said that space is an ocean. 
It is a free place.
    The ABM treaty has limits. The outer space treaty all talk 
to it, but they do not prohibit military activity in space that 
is nonaggressive, and the commission is not sitting here 
suggesting that we start putting or posting nuclear weapons in 
space. Those are prohibited, but military weapons in space, 
defensive ones are not prohibited.
    Senator Smith. I think just to elaborate on that point a 
little bit, when you look at some of the technology we have in 
space satellites, commercial satellites, weather satellites, 
military satellites, you have them all up there, and if 
somebody has the capacity, whether it is Saddam Hussein--if 
Saddam had had that capacity in the Persian Gulf War, we could 
have been in some deep trouble, so I think we have to be 
careful in terms of the definition of offensive and defensive, 
in terms of, for example, to incapacitate some capability that 
Saddam Hussein or any other world leader might have to mess 
around with our communications.
    Senator Wallop. Senator, if I could just interject, the 
Indonesians, using stuff that is said to have been purchased at 
Radio Shack, are able to disable a Chinese satellite going over 
them on its routine daily cycle, so if we were to be denied the 
capacity of our surveillance satellites for warfare or for the 
prevention of warfare, that would clearly be of great concern.
    Senator Smith. Thank you. I wonder if I could just ask one 
more question, and see if I could ask if each of you could give 
me a specific response.
    You made a very strong point in your report that a big 
problem that we face today is a lot of catch-up budget 
shortfalls across the gamut, from readiness--you name it, 
military pay, all of it--and we have to make up that ground, 
and when you are trying to move forward into the future and get 
started, you talked about the budget shortfall, and you also 
talked about consolidating management, but to consolidate 
management is not enough, obviously.
    I wonder if you could give me a specific recommendation on 
what we would do to move--assuming we could consolidate 
management--that is, I suppose a big assumption, but assuming 
we could, pretty quickly, where should we go with dollars now, 
knowing that those dollars are going to be competing with other 
dollars out there now for the other priorities? Where should we 
go right now to try to get us started to get where Billy 
Mitchell was 70, 80 years ago, and move forward, to get our 
foot in the door budgetarily?
    Senator Wallop. Can I just have one quick word? Others are 
far more skilled than I am in the appropriations process, but 
the chairman, now Secretary, was frequently able to say in the 
middle of our hearings, you say that you do not get any money 
for space, but I am sitting here and asking the question, money 
for what?
    Part of it is, the lack of focus has never been able to 
bring us to the point where we went to OMB and said, we need 
money for this thing, to do this civic purpose, and a big part 
of the failure has been that we were not able to define what it 
was we would achieve out of that which we hoped to get 
appropriations for, and his feeling was much like the movie, 
Field of Dreams: ``If you build it, they will come.'' If we 
define it and can make the case for its use, we can probably 
get it approved and appropriated.
    General Fogleman. I have already, Senator Smith, alluded to 
one area that I think, if we are able to achieve savings, or 
even if there is additional money that comes clearly once there 
is national attention and priority and some focus on this 
people will see the departure point has to be this space 
information superiority idea, this idea that you have to know 
what is up there.
    That is a departure point for everything, and then you go 
from there, so I think improving the space situational 
awareness, at least from my standpoint and my background, would 
be the first place that I would start to put some dollars.
    Senator Smith. Good answer.
    Mr. Graham. Senator Smith, I would certainly look at some 
of the systems capabilities that space presents us. For 
example, ballistic missiles are already offensive weapons that 
transit space, so in that sense, space was weaponized by Werner 
von Braun and the Third Reich in 1944.
    However, space presents the opportunity to defend ourselves 
against those weapons, and I would certainly put much more 
emphasis on the space component of ballistic missile defense 
than has been put on to date.
    I would also try to extend our reconnaissance coverage of 
critical areas of the earth to a continuous surveillance so 
that we know what is going on not only on periodic revisits but 
on a continuous basis, making denial, deception, and so on much 
more difficult, but underlying all of this I would come back to 
the cadre issue.
    The first dollar I would put towards space from this point 
forward would be in making sure that I had a cadre of the best 
students our schools had to offer, with the best experience 
that our country has to provide them, to oversee and operate 
and develop our space systems. I think very good people can 
make a lot of things work--a lot of organizations and a lot of 
challenges, but if you do not have the best people there on a 
long-term basis, all the money in the world is not going to 
help.
    General Moorman. I want to concur with what my colleagues 
have said, particularly on the space surveillance area, and Dr. 
Graham's comments about a space cadre, and paying attention to 
the people issue, if I think about it in a programmatic and a 
non-programmatic or non-hardware context.
    I will add one on non-hardware that I think goes hand-in-
glove with General Fogleman's comments on situational 
awareness, and that is on the people side of putting more 
emphasis on the analytical and assessment process of what is 
going on in space.
    On the programmatic side, I would add to the statements 
that have been made that our continued competitiveness in the 
space business on the commercial side is tied in many respects 
to the cost of getting into orbit. Right now it's 
extraordinarily expensive, and we have been very slow in being 
able to drive that cost down. There are programs on the books, 
but we continue to have to work on that, I believe.
    Then an area which is not a high-value thing, but has not 
had a lot of emphasis, and that is trying to protect your space 
assets. In this case I'm talking about space across the board, 
from the ground assets, to the launch, to the command and 
control, to the actual satellite, to the processing. We have to 
try to protect a little bit against what I would consider the 
cheap shot, or the inexpensive asymmetrical threats.
    Mr. Davis. Mr. Chairman, one other comment on that. I agree 
with General Moorman, especially on launch, and there are some 
things in the budget this year like orbital express and a small 
DARPA program, some innovative things I would encourage you to 
take a look at. But one area, I think is important, and back to 
my earlier comments, putting more with industry and relying on 
industry more, and I believe some funding increases initially 
will eventually pay for themselves in both communications and 
imagery.
    It is very difficult for military organizations to feel 
comfortable up front taking the chance of saying no, I'm not 
going to rely on military imaging, no, I'm not going to rely on 
military communications to support military operations, so the 
funds don't flow to purchase communications and commercial 
imagery as they should for the system to rely and say yes, in 
fact, we can rely on this, and take the Government assets and 
go be truly innovative and spend the savings to go do things 
that really push the state-of-the-art.
    So one of the places we need to consider putting some more 
money up front--and I know there is a proposal, and the money 
got diverted elsewhere, especially in imagery, was to go 
purchase more commercial imagery that is out there. There are 
some really tremendous commercial technologies out there that 
the Department just at the moment cannot take advantage of.
    Senator Allard. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
say hello to the witnesses here, and it is good to see all of 
you here, and good to see Malcolm back on the Hill in a 
different capacity.
    I want you to know that in my tenure in Congress, when I 
was a Member of the House, I have taken an active interest in 
our space programs. As a matter of fact, I was a member of the 
House Space Caucus, and a chairman of the caucus, and Newt 
Gingrich replaced me as chairman of the caucus in the House, 
and so I am pleased to see that this report focuses on 
organization and management as a first step in assessing our 
current space policy with respect to national security.
    If I made any mark in the House, one was in the space 
program, and the bill that was passed when President Reagan was 
there was commercializing space activities, and it was a time 
when we were running out of money, and so the way to do it was 
to get the private sector involved in that, so this has been my 
interest in space, and it is now on this subcommittee.
    Of course, I am interested in national security, and how it 
can be worked into space programs. The commission report 
mentions several ways in which a nation or a terrorist group 
might restrict or deny access, or use of space, and currently 
available methods include denying access to ground-based 
reconnaissance targets, or masking their signatures, or 
attacking ground stations or jamming satellite communications, 
and this is my question. If we have limited resources, which 
threat should we focus on the most, low-tech risks, mentioned 
above, or space-based threats such as micro satellites or 
nuclear detonations in space? Can you respond to that?
    General Fogleman. Senator, I will take it initially, if 
that is good, and then I will ask my colleagues.
    I think that the primary area that we would probably want 
to start with is in this area of threat analysis. There simply 
has not been enough threat analysis done so that we can 
prioritize these threats. We can postulate how perhaps some 
nation that has a ballistic missile capability and a crude 
nuclear weapon could put a nuclear weapon into space and 
disrupt through radiation the ability of a whole range of 
satellites to operate.
    There is the terrorist-based threat, if you will, and so 
there are a variety of threats that have been described in 
general terms but, quite frankly, the hard analytical work 
really has not been done. It starts to tell you what is most 
likely, how should I go about starting to spend my dollars to 
defend that. I would put that out and see if any of the other 
commissioners have any specifics.
    Mr. Graham. I would agree with that very much, and say that 
it is going to be an issue of balance when it is worked out 
finally. This is chess, and when we move in one direction, our 
adversaries will move in another. As we make one aspect of our 
space capability secure, they will look for other areas where 
they are not so secure, and it will be our challenge as a 
country to keep a balance across our space assets both for 
survivability and redundancy and back-up capabilities and 
others, so that we do not have an Achilles heel in our space 
infrastructure.
    General Moorman. Senator, I had mentioned earlier a point 
that General Fogleman made about the analysis. I guess I would 
use an illustration to really hit this home, having been in 
this business my entire military career.
    During the Cold War, ironically enough we had a very large 
stable of space intelligence analysts, and it was all focused 
towards the former Soviet Union and, to a lesser extent, the 
Chinese. The irony--and that was a fairly unambiguous threat, 
if you will, a fairly understandable, discrete threat. Today, 
as has been pointed out by the commissioners, we have tens of 
countries that have very sophisticated different kinds of 
threats which are ambiguous, often, and the number of people 
who worry that issue has decreased to only a handful, a 
relative handful, so in this constrained budget arena, I want 
to add my voice to General Fogleman's, this is a good 
investment and something to understand.
    The second point is to reinforce what I said earlier; I 
would, given what Dr. Graham said, given that this is a never-
ending spiral of action and reaction, that our first threat, 
once I understood the threat a little bit better, I would go 
after protecting against what I consider the easiest things for 
an enemy to interdict or threaten you and try to fix them. In 
many cases they may be relatively low cost, but we have not 
done that, that assessment in that kind of manner, and we need 
to do that.
    Senator Wallop. Just briefly, and it is not quite an answer 
to your question, but it bears paying some mind to, one of the 
recommendations of the commission is to find a way to become 
more dependent on the commercial sector, and the commercial has 
some interest in security because of the loss of payload and 
because of other kinds of reasons. If we are going to use them, 
we are going to have to either make it in their interests to 
have some security, or find out how to replace it should we 
lose it, and that is part of the analysis, but necessary if we 
are going to be increasingly dependent on the private sector 
for some of the things we need.
    General Fogleman. Mr. Chairman, I wonder if I might be able 
to come back and address--I know I spoke first on this issue, 
but if I could raise another issue that perhaps I failed to 
emphasize enough in my initial remarks, we as a commission 
believe very strongly that one of the biggest threats to future 
space capability may be the unintended consequences of well-
intended people signing up to certain treaties and restrictions 
today that in and of themselves seem to be very innocent, and 
as you go down the road they could end up tying our hands in 
ways that would very much limit our ability to continue to be 
dominant.
    We talk about the fact that one of the reasons we are 
pushing for an interagency group of some sort that could 
actually formulate and coordinate activities is to ensure that 
our representatives that go to domestic international bodies 
that deal with these kinds of things really have a 
comprehensive feel for what the impact may be. We make that as 
a specific recommendation of one of the areas of interest that 
should be in there.
    General Moorman. If you will permit me, every time I hear 
something, it reminds me of something to illustrate the point.
    General Fogleman mentioned the signing up for treaties. In 
this same area of interagency, we need to be very mindful that 
there are periodically international fora that address critical 
space issues. We might be denied capability just because we got 
out voted, or did not prepare properly. I am thinking of things 
like frequency allocation, where we could have lost GPS 
frequencies, or orbital assignments, orbital placement, orbital 
slots, which get assigned internationally, and that is part of 
this process, of this interagency process that needs to address 
things. A shot is not fired, or an overt hostile action does 
not look apparent, but the impact of some of these decisions in 
the international fora has every bit the same effect.
    Senator Allard. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. We just had 
the pleasure of meeting with your chairman earlier today, now 
our new Secretary of Defense, and that was a pleasure.
    Mr. Chairman, are we going to have an opportunity to go 
into any kind of executive session, where we could ask some 
more sensitive questions?
    Senator Allard. In this particular hearing we will not be 
going into executive session. I think later on, probably in the 
format of the full committee under Chairman Warner, 
particularly when we get into the authorization of our defense 
structure, we will move more and discuss some of those things 
under an executive format.
    Senator Bill Nelson. I have a number of questions in that 
area, then, but for purposes of this hearing. In your report, 
you say, ``to develop and deploy the means to deter and defend 
against hostile acts directed at U.S. space assets and against 
the uses of space hostile to U.S. interests.'' Tell me about 
what you mean, and what ought to be the provisions in the 
budget.
    We are starting to mark up the budget next week, and there 
is some concern. I have already discussed with Senator 
Domenici, the Chairman of the Budget Committee, as to whether 
or not we are going to have enough allocated in this markup for 
defense, so whatever you could share with us at this point 
would be most helpful.
    General Fogleman. Again, Senator Nelson, this is a question 
that was asked, but not precisely in that manner, but when 
asked what would be the first place you would want to spend 
some money if you wanted to get started on being able to 
provide this capability that you have pointed out that we spoke 
of, we believe if you are talking programmatically, from a 
hardware capability standpoint, that we must improve our space 
situation awareness, or what we have called space surveillance 
capability. That is, the ability to understand what it is that 
people are putting into space, what that spacecraft is intended 
to do, can do, etc.
    While we have a space surveillance system today, it is 
deteriorating. It is not keeping up. It is not giving us the 
kind of information that would allow national leadership to be 
able to discriminate between perhaps a space weather phenomenon 
and a hostile act, and it could then force you into a 
situation, as General Moorman earlier stated, where you intend 
to be springloaded, to assume that it was some kind of a 
natural act, or a non-hostile act, and that may get you into 
trouble.
    This is really starting to come out in our space wargames. 
We are beginning to see the more ambiguity that is associated 
with something that happens to vital overhead systems, the more 
likely that the participants will escalate and go to the next 
level more quickly, and so I think this whole area of space 
situational awareness, what we used to call surveillance, so 
that we can discriminate and understand what is really 
happening, would be an area that we would encourage money to be 
spent.
    Mr. Davis. Just a brief comment. I agree with everything 
General Fogleman said, and there were some comments about 
perhaps attacking the launch issue and getting launch costs 
down earlier, that General Moorman had brought up, but I just 
want to make a comment and be a little bit careful. The 
commission itself did not make any recommendations with regard 
to funding of any specific programs, and we talked about that. 
We spent many hours talking about that, as a matter of fact, so 
what you get today is a collective, probably unanimous opinion, 
but I just want to make the distinction that the commission did 
not recommend any specific funding adjustments in the budget.
    I would defer to General Fogleman here as our spokesman, 
but as the Government gets better organized and better managed 
there will be efficiencies and economies, and the better 
programs will bubble to the top and be candidates, would be the 
rationale.
    Senator Bill Nelson. What we have to do is make sure we 
have the resources to have the assets and the replacement for 
the assets there, and that decisionmaking process is starting 
immediately.
    Let me ask you this. After we lost Challenger, the whole 
idea of using the space shuttle for launching of payloads that 
you needed the man in the loop was changed, so that with 
expendables we would put up all of those payloads that you did 
not have to have the man in the loop.
    Recently, someone has suggested to me that that policy may 
be rethought, to start using the space shuttle again for 
defense payloads. Do you know anything about this and could you 
share any of your thoughts about it, as to why we ought to 
change the policy?
    General Fogleman. I would like to refer this particular 
question, Senator, to General Moorman, who was at the center of 
that decision process. I remember very well, because we were in 
the Pentagon at the time that the Challenger accident occurred, 
and it fell on his shoulders to sort through with NASA and with 
the Department of Defense and the people in the White House to 
come up with that, so I think he is best qualified to speak to 
it.
    General Moorman. With that lead-in, I am a little nervous 
to say I am not sure I know what is going on in the building 
today on that particular issue, but you have accurately stated 
the background, and you lived it. A lot of your constituents 
are very involved in that business. I do not know where that is 
now.
    There was a movement when I was still on active duty to 
bring a specific payload onto the shuttle and one of the things 
that made it desirable, and I guess the only thing I can add to 
the debate, not being informed today what is going on, but the 
thing that made that desirable is that particular payload had 
been designed to be dual-capable. I think you know the 
background of that.
    The first thing that I would ask if I were still in the 
building and in that process is, are the military payloads 
dual-compatible, because as you recall--and you lived all of 
this as well--the cost to do the redesign for the shuttle is 
exorbitant, but having the backup to be able to put them on the 
shuttle is a desirable aspect, particularly if we have a series 
of accidents like we experienced a couple of years ago with the 
expendable launch fleet, but I apologize to you, sir, I am not 
aware today as to what they are talking about.
    Mr. Davis. Senator, there is a discussion I just happen to 
know about, about putting a defense satellite on the shuttle, 
and that is somewhat involved in how quickly the EELV is coming 
online or not coming online, and how quickly the payload is 
needed, but there are some things you need to keep in mind as 
you are thinking about anything that is man-rated, putting 
certain kinds of satellites in orbit.
    When the shuttle was originally going to carry military 
payloads there was a shuttle Centaur, and after the Challenger 
accident the shuttle Centaur was canceled, which meant that a 
lot of the geosynchronous orbit satellites simply could not get 
up there with any other final stage because there was not 
enough energy to go up there, so there are a whole host of 
issues about, even with the best intent on both sides from NASA 
and the Defense Department and the intelligence community, some 
satellites probably cannot get to where they need to get with a 
shuttle launch with the approval process that is in place right 
now.
    Then a second issue is, how much is it going to cost the 
Defense Department to do that, are they going to be charged 
only the incremental costs, are they going to be charged the 
full amortization cost of it, and there are numbers that are 
being--and these are part of the discussions going on in the 
Pentagon right now, is it $100 million to launch this satellite 
on a shuttle, or is it $250 or $300 million, and my guess is 
the Pentagon interest is greatly different, depending on 
whether it is a $100 million or $300 million answer.
    Then just a final comment. When the Challenger had its 
accident there were payloads that originally had been designed 
to go on an expendable launch vehicle in the national security 
community that then fairly large sums were spent to reconfigure 
them and the design process to go on the shuttle, and then 
there was the Challenger accident, and then additional large 
sums were spent to move it back to expendable. There are still 
people running around that remember that.
    Second, there are still people running around that remember 
the difficulties with not being able to have a shuttle Centaur, 
and then having to go back and figure out how they get their 
payloads into orbit, and then finally, the Defense Department, 
most people do not realize that--you all would, but as a 
defense supplemental, the Government-wide supplemental moved 
through, about $1 billion was moved out of the Defense 
Department and moved in to pay for the replacement, so there is 
a long history there, sir.
    Senator Bill Nelson. That is why I raised the question, 
really, to fire a shot across the bow that we do not need to be 
going back and changing this policy back and forth unless the 
national security is at stake, and then if that is the case, 
then let us pony up. Let us do whatever we have to.
    Senator Allard. Let me just interrupt here just a little 
bit. I have been told by the staff that the only payload that 
we had scheduled to go up was the DSP satellite, which was an 
early warning satellite, and everything else now is scheduled 
on the Titan IVs.
    Also, Senator Nelson, you had some questions you wanting to 
cover in a closed format. We can make arrangements, if you 
like, for you to meet, not in this hearing but afterwards, or 
at some other time. Then you could ask your questions, if you 
would like, at that particular time, because time is running 
out.
    Senator Bill Nelson. I will just defer until that point.
    Senator Allard. Very good.
    We are back on a second round of questions, and now let me 
ask this question about the role of the Air Force. Some people 
felt that the space assets and our national security space 
management issues were not that well-handled in the Air Force 
because they were focusing on Air Force issues and not space.
    Then in your recommendation you are recommending an 
increase in the Air Force's role and authority on national 
security management. Would you address that?
    General Fogleman. It may be self-serving for me to take the 
question, but I will start out, sir, if I could, because I 
think that the commission's finding on this is really related 
to the fact that we believe that space is eventually going to 
become a medium for combat much like air, land, and sea.
    We feel strongly that our Nation needs a military service 
to organize, train, and equip, with organize, train, and equip 
responsibilities for space if this is going to occur, the 
military functions required for deterrence and defense of our 
interest in space, and so for that reason I believe the 
commission ruled out of assigning any kind of space 
responsibility to a DOD agency or an Assistant Secretary of 
Defense for Space or anything of that nature.
    Another option would have been for us to create perhaps a 
Space Corps, or some kind of a new Space Department. We had a 
lot of debate, a lot of discussion on this, but in the end I 
think we came to a consensus that the step would have been 
premature at this time, quite frankly because there just was 
not sufficient space center mass, or the space cadre in place 
to justify a corps or a department.
    So that left us with the next best choice of assigning the 
responsibility to an existing service and, since the Air Force 
was the place that had over 85 percent of the resources in the 
space business, they already reside there, we thought that what 
we would do is focus on what it was that the Air Force needed 
to do to perhaps be a better steward of space, and so I would 
say that those were things that went into the decision.
    I would also say that the commission agrees that the Air 
Force's performance in space up to this point, there was a 
legitimate question. Whether it was perceived or a reality, 
there was a legitimate question, and so if the Air Force does 
not step up to their responsibilities, and if it does not step 
up to the recommendations in this commission report, then we 
think that that will actually hasten the day in which there 
will be a space corps, or there will be a separate department.
    I think I spoke for the commission on that, and that is 
fundamentally where we came from, Mr. Chairman.
    Senator Allard. Does anybody else want to comment further 
on that?
    OK, then. I would like to have you comment a little bit 
about the role within the Army and Navy as far as our space 
assets. There is some concern within these two agencies about 
their ability to protect some of their legitimate service base 
equities, and how would you recommend that the DOD address 
those concerns from the Department of the Navy and Department 
of the Army?
    General Fogleman. Again, I will field it and allow the 
other commissioners to grade my answers, but we discussed this, 
and I will tell you that one of the things that impressed all 
of the commissioners about our chairman was that he was 
meticulous in drawing out everyone's equity in this business, 
and he wanted to make sure that these issues were discussed.
    We had representation on the commission. We had two senior 
Army officers, retired Army officers. We had a retired Admiral, 
Dave Jeremiah from the Navy, so equities were represented 
around the table, but more importantly, as we went through the 
discussion we came to the conclusion that for the purposes of 
stating requirements and developing unique systems for those 
services, nothing would change. In other words, the Army and 
the Navy would still have the requirement to go out and develop 
their own requirements, develop their program.
    The only thing that changes under what we recommended was 
that their programs, if you will, would be reviewed by the 
Under Secretary of the Air Force, the head of the NRO, who is 
now the single acquisition authority within the Air Force and 
NRO for space matters, so that they could rationalize timing.
    For instance, one of our concerns has always been the Army 
and the Navy, the Army more than the Navy because the Navy 
does, in fact, involve itself with developing and launching 
constellations. Normally, the Army's involvement is more in 
terms of equipment to exploit satellites that are on orbit, and 
so the idea was, we want to make sure that the programs are 
synchronized, that when we put a satellite up there, that the 
using service has, in fact, bought the equipment to utilize it.
    So it was for that reason that we have this, not approval 
authority, but a rationalization and coordination authority 
that we recommended be part of this process. Bottom line, 
nothing changes for the Army and Navy other than the fact that 
they have to submit their programs for review.
    Is there anything anybody else would like to add?
    General Moorman. That is a comprehensive answer. I want to 
reinforce the issue of being concerned about the equities of 
the other services. We talked a lot about confidence-building 
measures. Some of the things that we thought about and talked 
about was the national security space architect function, which 
under our report we recommend gets folded underneath the Under 
Secretary of the Air Force and the DNRO.
    That is a joint activity, and we even went down to the 
point of getting joint credit for that activity to make sure 
the Army and the Navy would be induced to want to participate 
in that activity.
    Another area is a movement probably to make all of the 
common user satellite systems joint system program offices, and 
offering those opportunities for the other services.
    Finally, the creation of the Under Secretary of Defense for 
Space, Intelligence, and Information, if it were to be enacted, 
gives the other services a court to bring their case below the 
Secretary of Defense. When you have to raise it to that level 
it gets a pretty high threshold.
    So those are three of the things we did talk about, and I 
agree with General Fogleman, is because other than the one 
system the Navy builds today, the other services are primarily 
in the application, and in the buying of the terminals, and 
those still stay in their budget and still are totally within 
their purview. The only thing that changes is a review process 
through the Under Secretary, and Director, National Counsel's 
office.
    Senator Allard. Mr. Graham.
    Mr. Graham. Senator Allard, I agree with my colleagues, but 
I would reaffirm that what we tried to do with the Air Force 
was really acknowledge in a somewhat more structured way the 
authorities and responsibilities that the Air Force already has 
in space. At the same time, the role of the other services, the 
Army, Navy, and the Marine Corps in space was one of my 
greatest concerns in the way we were structuring it.
    It is not a small issue to address those concerns, and to 
try to do what we could to keep the other services from 
ignoring or underestimating the benefit that space could bring 
to them, we attempted to recommend that the service-unique 
capabilities, the ground equipment, or implementation 
equipment, for example, ship equipment, should be left with the 
services, the other services have the opportunity to propose 
and even develop satellite systems in which they have the 
majority of the equities, and that they also develop a cadre, 
undoubtedly smaller than the Air Force, but nonetheless skilled 
and experienced, in space-related activities.
    They can do that both through their own programs and 
through joint activities in the services, but personally one of 
my greatest worries about our recommendation, for which I have 
no solution, is that if we end up with an Army, Navy, and 
Marine Corps that in the long run is clueless about space, we 
are going to be greatly disadvantaged compared to what we could 
be.
    Mr. Davis. Mr. Chairman, the words my colleague used about 
the Under Secretary of the Air Force was review of Army, Navy, 
Air Force programs. I think that is the word. It is not 
dictatorial. The Air Force Under Secretary will not have 
authority over the requirements. Normal requirements process 
will still take place through the JROC and the other mechanisms 
that are there. I think one of the places in the report, we use 
the word harmonized, that the Under Secretary of the Air Force 
has the responsibility to harmonize.
    If that individual is not happy, he should immediately go 
to the Under Secretary of Defense to start working at the 
Secretary of Defense level, but it will cut both ways, because 
there have been instances in the past in the case of MILSTAR. 
The Air Force was funding MILSTAR, and one of the other 
services just unilaterally cut out the terminal money. Issues 
like that need to get sorted out at the acquisition stage. 
There is no point in buying a satellite if there are no 
terminals, and those issues need to be bubbling up in the 
process, and that is what this Under Secretary of the Air Force 
should be able to do.
    A second issue would be, one of the first programs, and we 
did not talk about this as a part of the commission, but 
clearly one of the first examples would be the Navy's MUOS 
program. That is a common user DOD space communications system 
who, under the new--if our recommendations are ultimately in 
place, would be responsible for doing that.
    There is nothing to preclude the Navy from saying, this 
program is so important we will budget it, we will set up the 
program joint office, and these offices are to be joint offices 
for the common user systems, and we will provide the 06 as the 
program manager, and that 06 would report, then, to the Under 
Secretary of the Air Force, who is ultimately the acquisition 
authority.
    So the services can have as large a role as they want to 
push in the system to do this, but it also works both ways, 
that the Under Secretary of the Air Force should have some 
clout, then, as the harmonizer of all these, to go back to the 
fellow services and say, you are not buying the terminals to 
step up to go with the satellite, if necessary.
    Senator Allard. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Fogleman, you have made it explicitly clear that 
you see space as a medium for combat. We might be in a unique 
historical position, because to my knowledge we have not had 
any classical combat yet in space, and that leads me to another 
important recommendation of the commission, which is to shape 
the regulatory and legal structures so that we have the 
peaceful use of space, which means, I recognize non-aggressive 
military use of space.
    Can you talk about, and your colleagues talk about, some of 
the proactive steps we can take to shape this legal and 
regulatory structure to perhaps seize this unique moment where 
we can set standards that will allow us to protect ourselves 
but not to encourage, accelerate the combat in space?
    General Fogleman. As you say, Senator Reed, I may be ill-
prepared to be an advocate for this particular thing. I am not 
an advocate for combat in space, but my background is not 
technical, it is military history, and so I am afraid I am a 
bit of a pessimist, although I agree that we should seize 
whatever opportunity we can to further the peaceful use of 
space.
    I will defer to those who perhaps know more of the regimes 
that we might want to enter into, but again I think there was a 
very real, a very useful analogy made in which we talked about 
how we are an advocate for the peaceful use of the sea, and 
clearly there are protocols relative to the law of the sea, 
what you do with territorial waters, what you do with 
international straits, these kinds of things.
    I think there are parallels for what goes on in space, but 
I think first and foremost, as Senator Wallop said, one of the 
things that we who are responsible for the defense of this 
Nation need to make sure is that we do not find ourselves in a 
position where we lose our right of self defense, so I think 
whatever we would do we would want to keep that.
    Having said that, I would give anyone who would have a 
specific protocol, or whatever, that they would want to 
address--quite frankly, during the commission deliberations, 
and we did talk about this idea that we need to be proactive in 
shaping the international, legal, and regulatory environment, 
and we may have been a little remiss in not looking for what 
are the opportunities to shape this positively, and we were a 
little defensive about how, if we were not engaged, this 
unintended consequence could come down on us, and somebody who 
was well-intended, representing the United States Government 
but not with a coordinated space position, would sign up for 
something that in the end was detrimental to our country.
    Having said that, are there any other comments, Bill?
    Mr. Graham. Senator Reed, I think there are opportunities 
for working to peaceful cooperation in space. I would put them 
under a few categories, rules of the road being one, how to 
deconflict orbits, and other activities in space.
    Right now, when we fly the space shuttle, we keep an 
imaginary volume around it and in front of it, and maneuver the 
space shuttle as necessary so that it does not get too near 
objects that are up there. Well, the fewer, or the less junk 
that we and other countries put in space, the easier it will be 
for everyone to navigate in space, not only the shuttle, but 
all systems.
    Similarly, allocation of scarce assets in space is 
something we could have international cooperation on, orbital 
slots, particularly for geostationary orbits. Frequencies that 
are used for space communications are certainly a scarce asset. 
Safety from space objects. The Mir space station reentry is a 
good example of that. We cooperated with the Russians on the 
reentry of Mir, and the Russians planned it in such a way that 
they tried to avoid populated areas, and so on, and we helped 
track that and predict its reentry.
    I might mention as a footnote that, on the scarce assets, I 
believe Indonesia and Tonga got in a dust-up over certain 
geostationary slot asset allocations, and I think one of them 
ended up jamming the other satellite until they got it sorted 
out, so there has been a bit of a disagreement from time to 
time, where such actions as I described could be helpful.
    At the same time, personally, I would--and we did not 
discus this at length, although we did make a general reference 
to it--be very wary of getting into highly constraining arms 
control agreements, because I believe many of our potential 
adversaries do such agreements as, in fact, a vehicle of 
asymmetrical conflict against the United States, wherein they 
can be assured we will carry out any terms of these agreements 
to the most precise legal definition that can be made, whereas 
often they have no intention of adhering to these agreements.
    Senator Reed. For the record, Dr. Graham, that was not part 
of the commission's deliberations? That was not a conclusion of 
the commission?
    Mr. Graham. We concluded generally that the U.S. should be 
very thoughtful and careful about finding itself entangled or 
otherwise engaged in restrictive agreements, the implications 
of which we neither had the ability, nor had otherwise thought 
through carefully. I believe some of the space arms control 
agreements certainly fall into that category.
    Senator Wallop. If you look on the cover of our report, you 
might see how that represents an object in space that is known 
to exist, but I agree that our real purpose, as has been 
stated, this rules of the road, there are arms control 
agreements now which guide the peaceful use of space, but there 
are no really rules of conflict, and I think we would be remiss 
if we decided we wanted to sign up for those at those moment in 
time.
    Senator Allard. Here is the plan right now for the 
subcommittee. We are 5 minutes into a 15-minute vote. Senator 
Smith says he just has a very brief question. I think you have 
about finished your questions, and then what I thought we would 
do is go ahead and vote and then, Senator Nelson, give you an 
opportunity to ask--we will let you get to a place with some of 
the committee staff, and you can ask your questions that need 
to be asked off the record.
    Senator Bill Nelson. Senator, I have a conflict that I have 
to go to. I just want to ask one question for the record that 
might be responded by their staff.
    Senator Allard. Well, let us let General Fogleman quickly 
finish his response.
    General Fogleman. In one area that I am surprised my 
colleague, Mr. Davis, has not responded, Senator Reed, which I 
think is very important to help in the commercial arena, we 
have seen the first case of a fairly large-scale commercial 
constellation where the company has had financial failure, if 
you will, and a tremendous amount of liability issues 
associated with that. Who is responsible once you put that up 
there to deorbit it? What does this really do?
    I think these are areas where we could be very 
constructive, and be engaged in developing rules of the road 
not only for military, but in the commercial side of things, to 
help move us along.
    Senator Allard. Let me go ahead and call on Senator Smith.
    Mr. Davis. Back to your comment, Senator, about we have not 
had any conflict yet, General Fogleman pointed out earlier we 
do not know, because the weapons may not be bullets and bombs 
or photons and electrons, and that is critical that we are able 
to detect that and assess it, and today we cannot really do it.
    Senator Reed. I do not think anyone argues with your 
situational awareness point. That is the most immediate thing 
we can do and should do.
    Senator Allard. Senator Smith.
    Senator Smith. Mr. Chairman, given the time to the vote, I 
would yield my time to Senator Nelson.
    Senator Allard. Senator Nelson.
    Senator Bill Nelson. Well, bless your heart, Senator Smith.
    Senator Smith. You have had a little more experience in 
space than I do.
    Senator Bill Nelson. I would clearly yield it back, but 
just the timeliness of this question because of the budget, on 
page 28 of your report you say, ``appropriate investments in 
space-based capabilities would enable the Department to 
pursue,'' and then you list four things, ``improve space 
situational awareness, enhance protection defensive measures, 
modernize launch capability, and more robust science and 
technology program,'' and you list a host of things, and then 
you conclude by saying, ``providing those Departments the 
additional resources to accomplish these new missions should be 
considered as part of the U.S. national space policy,'' and if 
you could get your staff to respond to us, quantify that with a 
number, because we are going to be doing that next week, it 
would be most helpful.
    Thank you.
    Senator Allard. Thank you.
    Now we will go ahead and adjourn the meeting. I understand 
now you do not think you need this meeting.
    Senator Bill Nelson. That is correct.
    Senator Allard. But if at a future time you want to do it, 
we will see what we can do.
    I want to thank the subcommittee members. We tried to get 
this moving along. I want to thank the panel for their hard 
work, and I think this is a very helpful report, and the 
subcommittee will be reviewing it extensively and using it as a 
guideline. I expect the administration may very well want to 
use it as a guideline. We will keep the hearing record open for 
2 additional days for any other comments or questions that need 
to be submitted, and unless there is anything else to come 
before the subcommittee, we will go ahead and call the 
subcommittee adjourned.
    [Below are questions for the record submitted by 
subcommittee members for this hearing. Due to the Commission to 
Assess United States National Security Space Management and 
Organization disbanding shortly before this hearing, answers 
have not been supplied for the record.]
              Questions Submitted by Senator Wayne Allard
           expanding air force dominance in space management
    1. Senator Allard. Some have criticized the Air Force for not 
adequately advocating the development of space capabilities and 
organizations. The assertion is often heard that the Air Force does not 
want space power to compete with air power. To what extent do you agree 
with this view?

    2. Senator Allard. In light of such concerns, how do you explain 
the commission's recommendations to increase the Air Force's role and 
authority in national security space management?

                              integration
    3. Senator Allard. Recently, the Air Force has focused on ``air and 
space integration'' rather than the development of a dedicated space 
cadre. DOD and the Intelligence Community have also focused on 
integration of air and space intelligence, surveillance, and 
reconnaissance (ISR) capabilities. How can we achieve the benefits of 
integrating space capabilities with other warfighting capabilities 
without diluting or undermining the unique aspects of space 
capabilities?

                           space capabilities
    4. Senator Allard. The commission's report concludes that, like 
air, land, and sea, space will see conflict at some point in the 
future. According to the report, ``the U.S. must develop the means both 
to deter and to defend against hostile acts in and from space. This 
will require superior space capabilities.'' Do you believe that we are 
currently doing an adequate job in developing such superior 
capabilities?

            space as military power versus military support
    5. Senator Allard. The United States has looked to space assets 
primarily to support traditional warfighting capabilities rather than 
to provide new warfighting capabilities. Although concepts for 
deploying weapons in space are controversial--whether they be for 
missile defense, space control, or projecting power onto the surface of 
the earth--it may be essential for the United States to deploy such 
systems in the future in order to retain its current technological 
superiority. How important is it for the United States to develop such 
capabilities, and what would be the consequences if we do not?

                     black-white space integration
    6. Senator Allard. The commission made several recommendations to 
facilitate closer integration between the intelligence community and 
DOD. As a practical matter, how far would you envision such integration 
going?

    7. Senator Allard. Would you advocate a complete merger of ``black/
white'' space?

                       micro-satellite technology
    8. Senator Allard. Micro-satellite technologies offer the promise 
of changing the way we conduct a range of current space missions, and 
may also help us develop a number of new capabilities. Did the 
commission have a chance to examine the promise of micro-satellite 
technology and the adequacy of the current DOD effort in this area?

                           space-based radar
    9. Senator Allard. In my view, the United States has the 
technological capability and the operational need to make significant 
improvements in space-based surveillance and reconnaissance. Space-
based radar offers the possibility to have a global, 24-hour, all 
weather, system for tracking and collecting imagery of many classes of 
targets. Is this the kind of capability the United States should be 
developing to maintain our ISR advantage?

                            commercial space
    10. Senator Allard. I cannot agree more with your assessment, ``The 
U.S. Government, as a consumer, a regulator, or an investor, is 
currently not a good partner to the national security space industry.'' 
I also believe there is a disconnect between the rhetoric of the U.S. 
Government for its support and the funding for buys from commercial 
industry. I have seen your recommendations, but within those 
recommendation what specific steps can we do to rectify this situation?
                                 ______
                                 
             Questions Submitted by Senator Strom Thurmond
                        defense of space systems
    11. Senator Thurmond. Although increased intelligence collection on 
our adversaries' intention against our space platforms is critical, it 
seems to me that the Nation has to be prepared to defend our space 
systems. What priority should the Nation place on developing anti-
satellite systems to protect our critical space platforms?

                       international cooperation
    12. Senator Thurmond. Although I strongly support international 
cooperation on the use of space both for national security and 
commercial purposes, I am concerned that the spread of space technology 
will increase the risk to our country and our allies. Does the United 
States have the necessary controls in place to preclude the inadvertent 
loss of sensitive space technology?

                           immediate priority
    13. Senator Thurmond. I want to congratulate the commission on its 
series of findings. They are thought-provoking and focused on the 
development of a long-range space program to support our national 
security. Since the implementation of your recommendations will be a 
significant challenge, which of your recommendations should have the 
highest priority?
                                 ______
                                 
              Questions Submitted by Senator Daniel Akaka
    14. Senator Akaka. Many of the revolutionary changes and advances 
in technology called for in the commission report are parts of on-going 
research and development efforts. Programs in new launch vehicles, 
microsatellites, propulsion systems, and remote sensing are active. 
What is the biggest obstacle to technical advances in these areas: more 
funding, more people, or better management?

    15. Senator Akaka. The commission report states that hostile 
actions against space systems can be confused with natural phenomena. 
Much research is being done to understand solar and geomagnetic 
activity, their signatures, and how they affect spacecraft. This work 
enhances our ability to predict and forecast potentially hazardous 
events. This is done to distinguish the cause of spacecraft 
malfunctions and mitigate adverse effects, as well as to simply 
understand our near-earth environment. This is basic, mostly university 
and national lab-based, research. This research not only advances our 
knowledge and ability to use space, but also trains many space 
scientists. Shouldn't this research have as much a priority as that 
given in your commission report for new technology and applied research 
and development?

    16. Senator Akaka. The commission report places a large emphasis on 
military and intelligence research and development, which is important 
and vital to the Nation. But, a space policy and workforce will also 
include civilian and commercial communities. Do you think that 
emphasizing the military and intelligence aspect of U.S. space policy 
will discourage people who might be attracted to a career in space but 
do not want to work on military applications?

    [Whereupon, at 4:20 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
